 DOD INVOLVEMENT IN THE REVIEW AND REVISION OF THE
 COMMERCE CONTROL LIST AND THE U.S. MUNITIONS LIST


Report No. D-2001-088                   March 23, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098, by sending an electronic message to Hotline@dodig.osd.mil, or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CCL                   Commerce Control List
DTRA                  Defense Threat Reduction Agency
DTSI                  Defense Trade Security Initiative
MCT                   Militarily Critical Technologies
TWG                   Technical Working Group
USML                  U.S. Munitions List
                            Office of the Inspector General, DoD
Report No. D-2001-088                                                                  March 23, 2001
    (Project No. D2000LG-0244)

              DoD Involvement in the Review and Revision of the
              Commerce Control List and the U.S. Munitions List

                                      Executive Summary

Introduction. Public Law 106-65, National Defense Authorization Act for Fiscal
Year 2000, section 1402, “Annual Report of Militarily Sensitive Technologies to
Countries and Entities of Concern,” October 5, 1999, requires that the Inspectors
General of the Departments of Commerce, Defense, Energy, and State, in consultation
with the Director, Central Intelligence Agency, and the Director, Federal Bureau of
Investigation, conduct annual reviews of the transfer of militarily sensitive technologies
to countries and entities of concern. The Commerce Control List identifies all dual-use
commodities, software, and technologies subject to the export licensing process as well
as the conditions under which those commodities, technologies, and software may be
exported. The U.S. Munitions List identifies those items, technologies, and services
that are inherently military in character and could, if exported, jeopardize national
security or foreign policy interests of the United States. The list of militarily critical
technologies is designed to be sufficiently specific to guide the determinations of export
controls for any official exercising export licensing responsibilities. Technology
Working Groups are technical experts from the DoD community including academia,
Government, and industry essential to the Militarily Critical Technologies Program.

Objectives. The overall audit objective was to evaluate the role of DoD in reviewing
and revising the Commerce Control List and the U.S. Munitions List. Specifically, we
examined the DoD process for ensuring that U.S. national security objectives are being
considered when revisions to the Department of Commerce Control List and the
Department of State (State) U.S. Munitions List are made. We also reviewed the
management control program as it related to our objectives.

Results. DoD performed periodic reviews of multilaterally controlled items∗ listed on
the Commerce Control List. However, DoD did not perform periodic reviews of
unilaterally controlled items, which comprise 29 percent of the Commerce Control List.
Additionally, DoD did not perform a review of countries for which unilateral controls
were applicable. As a result, a valid requirement for an export license may no longer
exist for at least some of the 137 unilaterally controlled items on the Commerce Control
List and some of the 196 countries on the Commerce Country Chart (finding A).




∗
 Items as used in this report, refer to all goods, software, and technologies included in each Export
  Control Classification Number, not necessarily just one item.
The Defense Threat Reduction Agency has developed a plan and started to perform
reviews of approximately one-fourth of the U.S. Munitions List each year that will
result in a complete review of the U.S. Munitions List every 4 years. The Defense
Threat Reduction Agency Technology Security Directorate is responsible for the
Militarily Critical Technologies Program. The list of militarily critical technologies is
the main product of the Militarily Critical Technologies Program. However, critical
parameters for military technologies on the list of militarily critical technologies, a list
developed to be a guide for export controls, may be outdated and some developing
technologies with potential military applications may not have been identified. As a
result, the list of militarily critical technologies may not be sufficiently current to guide
the determinations of export controls and developing technologies that are militarily
critical may not have been added to export control lists (finding B).

The commodity jurisdiction and commodity classification procedures are key processes
used by the U.S. Government to establish licensing controls. DoD reviews the
commodity jurisdiction requests; however, DoD is afforded limited review of
commodity classification requests. In FY 2000, DTRA averaged 76 days to respond to
commodity jurisdiction request referrals from State. National Security Council
guidance allows referral departments 35 days to respond to State on the referred
commodity jurisdiction requests. As a result, DoD contributed to delays in rendering
export control decisions to exporters, causing uncertainty in the business community
regarding export controls (finding C).

See Appendix A for details on our review of the management control program.
Appendix C provides a report on DoD management actions, planned in response to the
Defense Trade Security Initiative, for reviewing the U.S. Munitions List. A Defense
Trade Security Initiative that will result in a review of approximately one-fourth of the
U.S. Munitions List every year has been announced, with a review of the total
U.S. Munitions List every 4 years.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Technology Security Policy) establish a process for working with the
Department of Commerce to facilitate periodic interagency reviews of the Commerce
Control List; work with the Department of Commerce to determine if any of the items
currently controlled unilaterally by the United States should be removed from the
Commerce Control List and to determine if any of the countries to which controls apply
should be removed from the Commerce Country Chart; establish goals and procedures
for the Militarily Critical Technologies Program ensuring that it adequately supports the
Technical Working Groups in their review of the list of militarily critical technologies;
and continue to work with the Department of Commerce to establish a process to
review commodity classification requests. We recommend that the Director, Defense
Threat Reduction Agency, ensure that adequate funding and resources are available to
support regular reviews of the Militarily Critical Technologies List, and provide
adequate resources to decrease processing times for review of commodity jurisdiction
requests.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy) concurred with the recommendations and was initiating corrective
actions. The comments were responsive and met the intent of all recommendations. A
discussion of management comments is in the Findings section of the report and the
complete text is in the Management Comments section.



                                              ii
Table of Contents

Executive Summary                                                                i

Introduction
     Background                                                                  1
     Objectives                                                                  4

Findings
     A. Review of the Use of the Commerce Control List                          5
     B. Review of the U.S. Munitions List and the List of Militarily Critical
         Technologies                                                           14
     C. Commodity Jurisdiction Requests and Commodity Classification
         Requests                                                               22

Appendixes
     A. Audit Process
         Scope                                                                  28
         Methodology                                                            29
         Management Control Program Review                                      30
     B. Prior Coverage                                                          31
     C. Management Actions to Review the U.S. Munitions List                    33
     D. Multilateral Export Control Organizations                               35
     E. Unilaterally Controlled Items on the Commerce Control List              39
     F. Countries Affected by Unilateral Controls                               48
     G. Letters Concerning Commodity Classification Requests                    53
     H. Report Distribution                                                     57

Management Comments
     Deputy Under Secretary of Defense (Technology Security Policy)             59
Background
    Public Law 106-65, National Defense Authorization Act for Fiscal Year 2000,
    section 1402, “Annual Report of Militarily Sensitive Technologies to Countries
    and Entities of Concern,” October 5, 1999, requires that the Inspectors General
    of the Departments of Commerce, Defense, Energy, and State, in consultation
    with the Director, Central Intelligence Agency, and the Director, Federal
    Bureau of Investigation, conduct annual reviews of the transfer of militarily
    sensitive technologies to countries and entities of concern. To comply with the
    first-year requirement of the Act, the Offices of the Inspector General conducted
    an interagency review of Federal agency compliance with deemed export
    licensing requirements contained in the Export Administration Regulations and
    the International Traffic in Arms Regulations. To comply with the second-year
    requirement of the Act, the Offices of the Inspector General conducted an
    interagency review of Federal agency review and revision of the Commerce
    Control List (CCL) and the U.S. Munitions List (USML).

    Commerce Control List. The CCL identifies dual-use commodities, software,
    and technologies subject to the export licensing process as well as the conditions
    under which those commodities, technologies, and software may be exported.
    All of the CCL items are controlled for export either multilaterally by the
    signatories of international agreements or unilaterally by the United States. The
    CCL is contained within the Export Administration Regulation, 15 Code of
    Federal Regulations, part 730. The Department of Commerce (Commerce),
    Bureau of Export Administration, controls the export of dual-use commodities
    using the authority provided in the Export Administration Act, which expired in
    August 1994 and has not been reenacted. However, with the issuance of
    Executive Order 12924, the President declared a national emergency and
    thereby continued and amended the provisions of the Export Administration Act
    under the authority of the International Emergency Economic Powers Act
    (Title 50, United States Code, section 1701). Each year thereafter, and most
    recently on November 13, 2000, the President issued a notice, “Continuation of
    Emergency Regarding Export Control Regulations,” that continues the
    emergency declared by Executive Order 12924.




                                        1
The CCL is divided into 10 categories as listed in Table 1.

                               Table 1. CCL Categories
Category         Title
   0             Nuclear Materials, Facilities, and Equipment [and Miscellaneous
                  Items]
    1            Material, Chemicals, “Microorganisms” and Toxins
    2            Materials Processing*
    3            Electronics
    4            Computers
    5            Telecommunications and “Information Security”
    6            Lasers and Sensors
    7            Navigation and Avionics
    8            Marine
    9            Propulsion Systems, Space Vehicles, and Related Equipment
*Materials Processing includes items such as ball bearings and pumps.


Within each CCL category, items are arranged by group. Each category
contains the same five groups. Each group is identified by the letters A through
E, as follows:

        A. Equipment, Assemblies, and Components;

        B. Test, Inspection, and Production Equipment;

        C. Materials;

        D. Software; and

        E. Technology.

Within each group, an Export Control Classification Number identifies
individual items. The Export Control Classification Number may designate a
general classification, such as “Items on the International Munitions List” or
may be more specific, such as “police helmets and shields.” Goods and
technologies covered by the category, group, and export control classification
numbers are controlled for export as delineated by the CCL.

           Commerce Role. The Export Administration Act requires the
Secretary of Commerce to establish and maintain a list of dual-use goods and
technologies that are subject to export controls. The Export Administration Act
states that the Secretary of Commerce must conduct partial quarterly reviews of
the list and promptly make necessary revisions. The review should include an
analysis of the availability of controlled items from sources outside the United
States. The Export Administration Act also requires that “all goods and
technologies on the list shall be reviewed at least once each year.”



                                          2
          DoD Role. The Export Administration Act states that the Secretary of
Defense shall identify goods and technologies for inclusion on the CCL. The
Secretary of Commerce must have the concurrence of the Secretary of Defense
to have export controls on items for national security concerns. If the
Secretaries of Commerce and Defense do not agree, the Secretary of Defense
can escalate the issue to the President. Additionally, in performing required
reviews of the CCL, the Secretary of Commerce must consult with the Secretary
of Defense to ensure that national security export controls are limited to
militarily critical goods and technologies.

U.S. Munitions List. The USML, which is controlled by the Department of
State, identifies those items, technologies, and services that are inherently
military in character and could, if exported, jeopardize national security or
foreign policy interests of the United States. The USML specifies Defense
articles, services, and related technical data that may be exported as well as the
conditions under which munitions may be exported. The USML is contained
within the International Traffic in Arms Regulations, 22 Code of Federal
Regulations, part 120. The State Office of Defense Trade Controls is
responsible for ensuring compliance with the Arms Export Control Act. The
USML consists of 21 categories, with 2 categories reserved for future use.

The Arms Export Control Act authorizes the President to control export of
defense-related articles and services and to designate which items appear on the
USML. In Executive Order 11958, “Administration of Arms Export Controls,”
January 18, 1977, the President delegated responsibility for administering export
functions associated with the Arms Export Control Act to the Secretary of State.
Within State, that function is delegated to the Bureau of Political-Military
Affairs, Office of Defense Trade Controls. That office carries out its
responsibilities by registering persons or companies involved in defense trade,
approving or denying export licenses, and ensuring compliance with the Arms
Export Control Act and other applicable laws and regulations.

Defense Threat Reduction Agency. The Defense Threat Reduction
Agency (DTRA) Technology Security Directorate is the DoD component that
the Department of Commerce (Commerce) and State consult when revising or
updating the CCL or USML. DTRA serves as the DoD agent for
implementation of DoD technology security policies established by the Under
Secretary of Defense for Policy and the Deputy Under Secretary of Defense
(Technology Security Policy) on international transfers of defense-related goods,
services, technologies and munitions consistent with DoD Directive 2040.2,
“International Transfers of Technology, Goods, Services, and Munitions,”
January 17, 1984. During FY 2000, DTRA reviewed 10,047 dual-use license
applications and 12,343 munitions license applications.




                                     3
Objectives
     The overall audit objective was to evaluate the role of DoD in reviewing and
     revising the CCL and the USML. Specifically, we examined the DoD process
     for ensuring that U.S. national security objectives are being considered when
     revisions to the CCL and the USML are made. Additionally, we evaluated
     whether DoD decisions regarding the CCL and the USML are reached in an
     efficient, optimal manner using all available information resources. We also
     reviewed the management control program as it applies to our objectives. See
     Appendix A for a discussion of the scope and methodology and our review of
     the management control program. See Appendix B for prior coverage related to
     the objectives.




                                       4
                     A. Review of the Use of the Commerce
                        Control List
                     DoD performed periodic reviews of multilaterally controlled items1 listed
                     on the CCL. However, DoD did not perform periodic reviews of
                     unilaterally controlled items, which comprise 29 percent of the CCL.
                     Additionally, DoD did not perform a review of countries for which
                     unilateral controls were applicable. Unilaterally controlled items listed
                     on the CCL and countries listed on the Commerce Country Chart were
                     not reviewed because DoD officials were not required to review export
                     controls placed on items because of foreign policy and short supply
                     concerns. As a result, a valid requirement for an export license may no
                     longer exist for at least some of the 137 unilaterally controlled items on
                     the CCL and some of the 196 countries on the Commerce Country
                     Chart.

Requirements for Export Controls
            The Export Administration Act states that export controls should be used only
            after fully considering the impact on the U.S. economy and only to the extent
            needed to restrict the export of goods and technology to:

                     •   prevent a significant contribution to the military potential of any
                         other country or combination of countries and be detrimental to the
                         national security of the United States,

                     •   further U.S. foreign policy or meet its international obligations, and

                     •   protect the domestic economy from the excessive drain of scarce
                         materials and reduce the impact of foreign demand.

            National Security Export Controls. National security export controls are
            detailed in Section 5 of the Export Administration Act. Goods or technologies
            controlled for national security concerns are regulated to prevent a significant
            contribution to the military potential of a country of concern that would prove
            detrimental to the national security of the United States and do not include those
            goods and technologies detailed in Section 6 of the Export Administration Act,
            Foreign Policy Controls. The United States is a member of several international
            organizations concerned with the export of dual-use and munitions items to
            countries of concern. Those organizations include the Australia Group, the
            Chemical Weapons Convention, the Missile Technology Control Regime, the
            Nuclear Suppliers Group, and the Wassenaar Arrangement on Export Controls
            for Conventional Arms and Dual-Use Goods and Technologies (Wassenaar
            Arrangement). See Appendix D for a detailed discussion of those


1
    Items as used in this report refer to all goods, software, and technologies included in each Export
     Control Classification Number, not necessarily just one item.

                                                        5
    international organizations and their signatories. Items that have multilateral
    export controls are generally items controlled by the United States for national
    security reasons.

    Foreign Policy Export Controls. According to the provisions of Section 6 of
    the Export Administration Act of 1979, as amended, export controls maintained
    for foreign policy purposes (unilateral controls) require annual extension.
    Section 6(f) of the Export Administration Act requires the Secretary of
    Commerce, through authority delegated by the President, to submit a report to
    Congress to extend the controls. The Export Administration Regulation defines
    a foreign policy control as follows.
               A control imposed under the Export Administration Regulation for
               any and all of the following reasons: chemical and biological
               weapons, nuclear nonproliferation, missile technology, regional
               stability, crime control, anti-terrorism, United Nations sanctions, and
               any other reason for control implemented under section 6 [Foreign
               Policy Controls] of the EAA [Export Administration Act] or other
               similar authority.

    An example of controlling exports for foreign policy concerns would be the
    control of items classified under Export Control Classification Number 1C992,
    “commercial charges and devices containing energetic materials.” Items under
    this classification could enhance a country’s ability to support acts of
    international terrorism. Therefore, the United States controls export of
    commercial charges and items containing energetic materials as an anti-terrorism
    control even though commercial markets exist and the items may be widely
    available.

    Short Supply Export Controls. Short supply controls are detailed in Section 7
    of the Export Administration Act. To protect the domestic economy from an
    excessive drain of scarce materials and reduce the impact of foreign demand,
    “the President may prohibit or curtail the export of any goods subject to the
    jurisdiction of the United States or exported by any person subject to the
    jurisdiction of the United States.”

    An example of controlling exports for short supply concerns would be control of
    items classified under Export Control Classification Number 1C983, “natural
    gas liquids and other natural gas derivatives.”

Using the CCL
    Use of the Commerce Control List. To classify an item against the CCL, the
    exporter identifies the appropriate category and matches the item’s
    characteristics and functions to a specific Export Control Classification Number.
    Each Export Classification Number has associated reasons for control. The
    exporter must then review the Commerce Country Chart to determine if the
    country to which they are exporting the item requires a license.



                                             6
    Commerce Country Chart. The Commerce Country Chart, like the CCL, is
    maintained by Commerce, Bureau of Export Administration. The Commerce
    Country Chart helps the exporter, based on the reasons for control associated
    with their item, determine if a license is needed to export or reexport the item to
    a particular destination. Items controlled for short supply reasons and unique
    entries, which include United Nations sanctions, are the only instances in which
    the Commerce Country Chart is not used. Part 738 of the Export
    Administration Regulation, Commerce Control List Overview, and the Country
    Chart, lists unique entries. Part 754 of the Export Administration Regulation,
    Short Supply Controls, describes reasons for short supply controls.

CCL Controlled Items
    DoD performed reviews of multilaterally controlled items listed on the CCL for
    national security concerns. However, DoD was not required to perform
    periodic reviews of unilaterally controlled items listed on the CCL or to perform
    a review of countries for which unilateral controls are applicable.

    Multilaterally Controlled Items. Several international organizations exist that
    have agreed on multilateral export controls for items that contribute to the
    military potential of other countries. Each international organization differs in
    membership but the mechanisms to change applicable export control lists are
    similar and the preparation process for each is nearly identical. Changes made
    to an international agreement are made through a proposal process. The
    international organizations review each of the international agreement export
    control lists during the proposal process. Each country submits proposals
    agreed upon through negotiations. Once members of the agreement have agreed
    to a proposed change, each country must implement that change. The United
    States implements the change by revising the CCL or USML, as applicable.
    Because multilateral export controls are considered more effective than
    unilateral controls, DoD gives a high priority to periodic reviewing of
    multilaterally controlled items, developing proposals for revisions of
    international agreements, and researching foreign proposed changes to
    international agreements.

               Comparing the CCL with the International Agreements. We
    compared the CCL with the export control lists of the international organizations
    of which the United States is a member and the Chemical Weapons Convention
    Treaty. For each of the international agreement export control lists and the
    Chemical Weapons Convention Treaty, we compared each item and sub-item to
    the items on the CCL. As of December 21, 2000, 472 items were on the CCL.
    Of the 472 items, control of 14 items was based on the Australia Group control
    list; 2 items on the Chemical Weapons Convention Treaty; 109 items on the
    Missile Technology Control Regime control list; 97 items on the Nuclear
    Suppliers Group control list; and 157 items on the Wassenaar Arrangement
    dual-use list. We were able to locate all of the items controlled by international
    agreements on the CCL except for 16 of the items on the Missile Technology
    Control Regime list. Those 16 items were controlled by the USML. In total,
    the international agreement export control lists and treaty-based controls
    comprised 71 percent of the items controlled by the CCL.

                                         7
             Items not listed on the international agreement export control lists named above
             were considered unilaterally controlled. The remaining 137 items were
             controlled unilaterally by the United States. Table 2 shows our results.

                Table 2. Comparison of the CCL to the Multilateral Regime Lists
                                                                   Chemical  Missile
                         CCL Items                                 Weapons Technology Nuclear
                            per         Unilateral    Australia   Convention Control  Suppliers Wassenaar
      Category            Category      Controls       Group        Treaty   Regime    Group Arrangement

0 – Nuclear
Materials, Facilities        37              22            0            0              0            15      0
and Equipment

1 – Materials,
Chemicals,                  112              21            8            2             20            40     27
“Microorganisms,”
and Toxins

2 – Materials
                             67              24            6            0             11            23     18
Processing

3 – Electronics              43              15            0            0              6            12     13

4 – Computers                21              10            0            0              4              0     8

5 Part 1 –
Telecommunications           14               6            0            0              4              0     4

5 Part 2 –
Information Security           7              3            0            0              0              0     4

6 – Sensors and
                             53              17            0            0             12              7    24
Lasers

7 – Navigation and
                             40               4            0            0             22              0    20
Avionics

8 – Marine                   12               4            0            0              0              0     8

9 – Propulsion
Systems, Space
                             66              11            0            0             30              0    31
Vehicles and Related
Equipment                   ____           ____         ____          ____           ____          ____   ____
       Total*               472            137            14            2            109            97    157

 *Items on control lists do not add up to 472 because many of the items are controlled by more than one
  multilateral regime list.



                                                            8
          Removing Items from International Agreement Export Control
Lists. Items listed on the CCL because of national security concerns may be
removed from international agreement export control lists for a number of
reasons, including growth in commercial markets or the items becoming widely
available from multiple sources. However, there are instances when the United
States will decide the item should continue to be controlled. In those instances,
the United States will continue to control the item unilaterally by retaining the
item on the CCL for foreign policy reasons, usually for anti-terrorism controls.
Once an item on the CCL is designated as a foreign policy controlled item, DoD
does not perform any subsequent reviews to determine if control of the item is
still necessary.

Unilaterally Controlled Items. Items may be unilaterally controlled because
they are not available from any country other than the United States or because
the United States does not want to export the items for foreign policy concerns
or short supply concerns. Foreign policy concerns include anti-terrorism, crime
control, and nuclear nonproliferation. We determined that items listed as
unilaterally controlled in Appendix E were not on any of the international
agreement export control lists. Of the 137 items we reviewed that were
unilaterally controlled, 113 items were controlled for anti-terrorism concerns;
19 items were controlled for crime control concerns; 12 items were controlled
for nuclear nonproliferation concerns; 7 items were controlled for short supply
concerns; 15 items were controlled based on United Nations concerns; and
2 items were controlled for other concerns. The number of items does not total
137 because items may be controlled for more than one of the reasons listed.
Table 3 shows the results of our review. See Appendix E for the list of
unilaterally controlled items.




                                    9
                        Table 3. Review of Reasons for Unilateral Control of Items
                        Unilaterally     Anti-      Crime        Nuclear           Short    United
      Category          Controlled     Terrorism    Control   Nonproliferation    Supply    Nations    Other**

0 – Nuclear
Materials, Facilities       22            10             9            3               1        10         0
and Equipment
1 – Materials,
Chemicals,                  21            13             2            1               6         2         0
“Microorganisms,”
and Toxins
2 – Materials               24            24             0            8               0         1         0
Processing
3 – Electronics             15            13            4             0               0         0         1

4 – Computers               10            10            3             0               0         0         0

5 Part 1 –
Telecommunications           6             5             0            0               0         0         1

5 Part 2 –
Information Security         3             3             0            0               0         0         0

6 – Sensors and             17            17             0            0               0         0         0
Lasers

7 – Navigation and
                             4             4             0            0               0         0         0
Avionics

8 – Marine                   4             4            0             0               0         1         0

9 – Propulsion
Systems, Space              11            10             1            0               0         1         0
Vehicles and
Related Equipment
                          ____           ____        ____           ____           ____       ____       ____

       Total*              137           113            19           12               7        15         2

 *The total of the foreign policy columns do not add to 137 because many items are controlled for more than one
 foreign policy concern.
 **“Other” includes Unilateral Controls for Missile Technology and Omnibus Crime Control foreign policy
 concerns.




                                                   10
     The United States can revise the CCL in response to changing domestic policies.
     Although infrequent, revisions to the CCL that resulted in the removal of items
     can be and have been made by the United States in response to changing
     policies. The revisions were usually for one of three reasons: either Commerce
     or DoD proposed revisions due to changing world events; advisory councils
     proposed revisions because of a review of technology that resulted in a decision
     that controls were no longer necessary; or, Congress directed that the CCL be
     changed.

     Countries for Which Unilateral Controls Are Applicable. Once determined
     that an item may be controlled, the exporter must determine if the country to
     which they are exporting requires a license. The determination is made by
     reviewing the Commerce Country Chart. We did an analysis of the Commerce
     Country Chart to determine how many countries are included and require an
     export license for unilateral controls. Our analysis showed that two
     controls—crime control and nuclear nonproliferation—applied to a large number
     of countries. The results of our review are detailed in Table 4. A country can
     be affected by more than one unilateral control. See Appendix F for a list of the
     countries requiring an export license.

               Table 4. Summary of Countries Affected by Unilateral Controls
             Category                     Number of Countries

             Anti-Terrorism                         8*
             Crime Control                         178
             Nuclear Nonproliferation              164
     *
         Includes embargoed countries




Foreign Policy Export Controls
     Unilaterally controlled items on the CCL and countries for which unilateral
     controls are applicable were not reviewed because DoD officials were not
     required to review export controls placed on items because of foreign policy and
     short supply concerns. The 137 items unilaterally controlled on the CCL were
     controlled because of foreign policy and short supply concerns as defined by the
     Export Administration Regulations. The majority of those items were controlled
     because of the potential terrorist threat that the items pose. Additionally, the
     196 countries for which crime controls and nuclear nonproliferation controls
     were applicable were controlled because of foreign policy concerns. Controls as
     a result of anti-terrorism concerns could benefit from DoD expertise in a review
     of unilaterally controlled items on the CCL. The countries affected by foreign
     policy controls, especially crime control and nuclear nonproliferation controls,
     could also benefit from a DoD review of the Commerce Country Chart.
     Commerce has not required or scheduled periodic DoD reviews of unilaterally
     controlled items. Because the Export Administration Act requires the

                                         11
     concurrence of DoD for control of items based on national security concerns
     and because unilaterally controlled items are controlled based on foreign policy
     and short supply concerns, no DoD requirement for a review of unilaterally
     controlled items exists.

Effect of Not Reviewing Unilaterally Controlled Items
     A valid requirement for an export license may no longer exist for at least some
     of the 137 unilaterally controlled items on the CCL and some of the
     196 countries for which unilateral controls are applicable. The United States
     unilaterally controls exports of 137 of the 472 items (29 percent) listed on the
     CCL to at least 196 countries. Because no review of those items or countries
     has been conducted, a requirement for an export license may no longer exist.
     Additionally, the percentage of items on the CCL that are unilaterally controlled
     will continue to increase as items are removed from international export control
     lists and are subsequently unilaterally controlled by the United States because of
     foreign policy concerns.

     The CCL identifies dual-use commodities, software, and technologies subject to
     the export licensing process. Reducing unilaterally controlled items listed on the
     CCL and the number of countries to which those controls are applicable reduces
     the administrative burden and facilitates the use of the CCL when determining if
     an export license is required. For each item on the CCL, an exporter must
     check the Export Administration Regulations to determine which country’s items
     listed must have export licenses. When Commerce receives the license
     application, Commerce will duplicate the check that was made of whether an
     export license is required and may refer the license to DoD, who will also verify
     whether an export license is required. The number of items listed on the CCL
     with foreign policy export controls and the number of countries to which the
     unilateral controls apply increases the burden on exporters to submit export
     license applications for items that may no longer need to be controlled for
     export. In addition, a cost to the United States for processing each license
     application exists. Although we were unable to quantify the cost, actions that
     reduce the number of export license applications will result in a less costly,
     more efficient export licensing process.




                                         12
Recommendations and Management Comments
    A. We recommend that the Deputy Under Secretary of Defense
    (Technology Security Policy):

           1. Establish a process for working with Commerce to facilitate
    periodic interagency reviews of the Commerce Control List.

    Management Comments. The Deputy Under Secretary of Defense
    (Technology Security Policy) stated that DoD will work with Commerce to
    encourage them to adopt a regular schedule for reviewing relevant portions of
    the CCL to ensure that it is up to date.

           2. Work with the Department of Commerce to determine if any of
    the items currently controlled unilaterally by the United States should be
    removed from the Commerce Control List.

    Management Comments. The Deputy Under Secretary of Defense
    (Technology Security Policy) stated that while foreign policy is not a direct DoD
    responsibility, DoD does agree that regular interagency reviews of items on the
    CCL that are controlled unilaterally might benefit from DoD expertise. DoD
    will endeavor to offer its expertise to Commerce and State for reviews of the
    CCL.

           3. Work with the Department of Commerce to determine if any of
    the countries to which controls apply should be removed from the
    Commerce Country Chart.

    Management Comments. The Deputy Under Secretary of Defense
    (Technology Security Policy) concurred stating that although it is complicated,
    the Commerce Country Chart needs to be updated to reflect the current
    international security environment. The DoD will be supporting a review of the
    Commerce Country Chart in the Export Administration Regulation.




                                       13
           B. Review of the U. S. Munitions List
              and the List of Militarily Critical
              Technologies
           DTRA has developed a plan and started to perform reviews of
           approximately one-fourth of the USML each year that will result in a
           complete review of the USML every 4 years. DTRA Technology
           Security Directorate is responsible for the Militarily Critical
           Technologies (MCT) Program. The list of MCT is the main product of
           the MCT Program. However, critical parameters for military
           technologies on the list of MCT, a list developed to be a guide for export
           controls, may be outdated and some developing technologies with
           potential military applications may not have been identified. DTRA had
           not developed goals and procedures to update militarily critical
           parameters of existing technologies or to identify developing
           technologies. As a result, the list of MCT may not be sufficiently
           current to guide the determinations of export controls and developing
           technologies that are militarily critical may not have been added to
           export control lists.

U.S. Munitions List Review Requirements
    In a Deputy Under Secretary of Defense for Policy (Policy Support) white
    paper, “Arms Transfer and Technology Transfer White Paper,” September
    1999, the need for review of the USML was recognized. The white paper
    addressed problems raised by representatives of the U.S. defense industry and
    foreign customers about U.S. processes for regulating arms transfers,
    technology transfers, and disclosures of classified information. The white paper
    contained a recommendation that stated in part:
               The U.S. munitions list should be reviewed to identify items and
               technologies that should no longer be controlled either because they
               represent low-risk transactions, or because of their widespread
               availability, are no longer controllable.

    The Secretary of State announced the Defense Trade Security Initiative on
    May 24, 2000. State released background information on the Defense Trade
    Security Initiative that states the recent rapid advances in military technology
    and capabilities requires a set review schedule for the USML. Before the
    announcement of the Defense Trade Security Initiative, no clearly defined
    schedules for reviewing the USML were in place. The last review was
    undertaken in 1992.

    Defense Trade Security Initiative action 17 (DTSI 17), “Periodic Review of the
    USML,” requires State and DoD to establish a schedule for reviewing portions
    of the USML with a view toward refining USML categories to ensure coverage
    is appropriate. DTSI 17 will result in State and DoD setting up a schedule for
    annual reviews of approximately one-fourth of the USML. The 19 actively used
    categories of the USML will be divided into four groups so that all the
                                           14
     categories will be reviewed every 4 years. Additionally, a process for
     reviewing the USML to comport with the list of MCT can be a resource for
     clarifying the list of MCT and the reason for export controls.

Periodic Review of the U. S. Munitions List
     DTRA developed a plan and began to perform reviews of approximately
     one-fourth of the USML each year that will result in a complete review of the
     USML every 4 years. According to DTRA officials, the plan was discussed
     with senior Commerce, DoD, National Security Council, and State officials on
     November 27, 2000, and review of five categories of the USML has begun.
     Details of the plan and the review of work completed as of December 18, 2000,
     are described in Appendix C.

The Militarily Critical Technologies Program
     The Export Administration Act assigns DoD responsibility for providing
     assessments of MCT and equipment. The MCT Program produces the list of
     MCT. In a January 1995 Deputy Secretary of Defense tasking memorandum,
     “Militarily Critical Technologies List (MCTL) Program Support,” the Deputy
     Secretary of Defense stated that the list of MCT is to be used as a technical
     reference for licensing and export control by Commerce, U.S. Customs
     Services, DoD, Department of Energy (Energy), and State. DTRA manages the
     MCT Program, which involves contractor assistance. Administering the
     MCT Program is a continuous analytical, and information-gathering process that
     refines information and updates existing documents. The MCT Program
     designed the format of the list of MCT and presents proposals to DTRA for any
     changes to the list of MCT.

     Organization of the List of MCT. In 1996, using comments received from
     users of the list of MCT as a guide, the MCT Program determined that the list
     of MCT would be more useful if separated into three parts. The list of MCT is
     now comprised of three parts: Part I, “Weapons Systems Technologies,” with
     18 sections; Part II, “Weapons of Mass Destruction Technologies,” with
     6 sections; and Part III, “Developing Critical Technologies,” with 20 sections.

                Part I - Weapons Systems Technologies. Part I details critical
     technologies necessary to ensure continuing superior performance of
     U.S. military systems. Part I consists of current technologies and takes into
     consideration expected development of technologies for the next 5 years. Part I
     also lists the technical performance parameters that result in identification of a
     technology as a militarily critical technology. Part I was developed to provide a
     guide for determination of export controls for any official exercising export
     licensing responsibilities.

               Part II - Weapons of Mass Destruction Technologies. Part II
     identifies technologies required for development, integration, or employment of
     biological, chemical, and nuclear weapons and means of delivery. The section
     addresses technologies that proliferators might use to develop weapons of mass

                                         15
     destruction. Part II differs from the Weapons Systems Technology criteria of
     parameter levels for superiority of U.S. military systems in that operational
     technology capabilities are stressed.

                Part III - Developing Critical Technologies. Part III presents
     information upon which developing technologies may be militarily important,
     why the technologies may be militarily important, where the technologies will
     be developed, and how DoD can gain access to the technologies to apply them
     to major military systems. Part III identifies those technologies that can produce
     increasingly superior performance of military systems or maintain an
     U.S. capability more affordably. The objective of Developing Critical
     Technologies is to look beyond 5 years and as far in the future as reasonable to
     determine which developing technologies will become militarily critical.
     Part III is produced to provide DoD with a summary of technologies that have
     the potential for future military applications.
     Uses of the List of Militarily Critical Technologies. The list of MCT, a
     reference guide used as one source of information in the development of export
     control lists, is not an export control list. The list of MCT is a technical
     reference designed for the following purposes:

            •   For U.S. officials to use as an information resource during
                development of U.S. proposals for export control in multilateral
                export control organizations;

            •   For Commerce, U.S. Customs Services, DoD, Energy, and State to
                use for licensing and export control.

Updating and Identifying Militarily Critical Technologies
     Critical parameters for military technologies listed in the list of MCT may be
     outdated and developing technologies with potential military application may not
     have been identified. The list of MCT was designed and created to be a
     significant tool for updating and identifying MCT through the MCT process.

     Wassenaar Arrangement Reviews. DTRA scheduled DoD Technical Working
     Group (TWG) meetings to respond to issues raised within international arms
     agreement forums. The DTRA officials stated that the Wassenaar Arrangement
     agenda drives the MCT process. The MCT Program provides technical support
     for this process. DTRA officials have identified responding to Wassenaar
     Arrangement reviews as a top priority. MCT Program officials stated that the
     TWGs try to address the MCT Program requirements for updating and
     identifying the MCT, but the TWGs are often used to research either U.S. or
     foreign positions that are scheduled to be reviewed at Wassenaar Arrangement
     reviews. The list of MCT should be kept current to provide guidance for
     positions discussed in forums such as the Wassenaar Arrangement.

     Militarily Critical Technologies Program. The MCT Program provides
     ongoing analyses of militarily critical parameters to the technologies and
     analyses of MCT. The use of TWGs is essential to the MCT Program.

                                         16
           TWG members are technical experts with DoD interests. The TWGs
           continuously assess the status of current and developing technologies in the
           United States and foreign nations and evaluate national security implications.
           TWGs provide the technical expertise required for analysis of MCT. TWGs
           include members from academia, DoD, other Federal agencies, industry, and
           the Military Services. TWG members from industry are typically volunteers
           and attend meetings at no cost to the Government. TWG members are
           encouraged to express their own position and not necessarily that of the
           company or organization they represent.

                      Updating Militarily Critical Parameters. The MCT Program uses
           TWGs to update militarily critical parameters for technologies that have already
           been identified as militarily critical. “The TWGs primary task is to accomplish
           the necessary analyses and actions required to update data for their particular
           technology area and to develop the list of MCT and other documents.2” The
           MCT Program will call for a meeting of TWG members to define militarily
           critical parameters, but frequently relies on members who represent DoD
           officials and Government contractual agencies to define military criticality. The
           work of the TWGs used to define MCT is used to update Part I of the list of
           MCT, “Weapons Systems Technologies.” Part I of the list of MCT is also
           updated through a migration of information from Part III, “Developing Critical
           Technologies.”

           The TWGs last conducted a full review of all sections of Part I of the list of
           MCT in 1996 when the document was reformatted. Since that time, some of the
           sections have been updated several times, while others have few changes. The
           MCT Program proposes additions and deletions to the list of MCT, but DTRA
           determines which revisions will occur. Revisions to Part I include removal of
           conventional doppler radar systems and conventional radar altimeters. The
           MCT Program is currently working on a complete review of Part I, section by
           section, but as of January 17, 2001, has no plans or goals for completion of the
           review. The review of Part I will provide reformatting for ease of use.
           However, the main emphasis will be on identifying current MCT and their
           parameters. The revision of Part I will contain 20 sections rather than
           18 sections. The revised Section 7 is now in draft format. In the revision,
           Section 7, “Guidance, Navigation, and Vehicle Control Technology,” will be
           Section 16, “Positioning, Navigation, and Time Technology.”

           The MCT Program reviewed and updated Part I periodically, however, the
           MCT Program did not keep pace with rapidly changing parameters for MCT
           such as ground systems technologies. Additionally, DTRA was not reviewing
           Part I on an ongoing basis for the purpose of removing from the list any
           technologies that were no longer militarily critical. Because Part I is primarily
           oriented toward providing one of many references for a variety of export control
           activities, a document that is up to date is highly desirable.




2
    Jorstad, Norman D., and Boezer, G.L., (1999), Technology Working Group Handbook and Membership
     List, Virginia: Institute for Defense Analyses.

                                                 17
              Identifying Developing Critical Technologies. The MCT Program
    uses the TWG process to identify developing technologies that will produce
    increasingly superior performance of military systems or maintain a superior
    capability more affordably. Once identified, those technologies are then placed
    on the list of MCT in Part III.

    To assist in identifying developing technologies, the MCT Program relies
    heavily on TWG members from academia and industry. Academia is at the
    forefront of research and development, but industry participation is also
    important because industry looks at the application of technologies.
    TWG meetings are sometimes held at academic institutes to solicit input from
    academia. Heads of academic departments at universities are often TWG
    members and determine to whom MCT Program officials need to talk about
    developing technologies. The Heads of the academic departments will often
    arrange meetings with scientists and researchers who are on the cutting edge of
    research and development. Those TWG meetings are used to prepare Part III of
    the list of MCT.

    The initial development of Part III of the list of MCT began in 1998 as a result
    of the 1996 decision to divide the list of MCT into three parts. As of
    November 2000, Part III was approximately 80 percent complete. Of the
    20 MCT sections, 11 were revised and posted on the Internet. The date when
    the review will be completed is unclear, as well as how long the review will
    take because no set goals or procedures exist to complete the review. Because
    Part III identifies developing MCT, the lack of meetings to review Part III may
    result in MCT not being identified and added to export control lists. In
    addition, although not planned for, regular TWG meeting should occur when the
    review of Part III is complete to ensure the list of MCT is kept current with
    developing technologies. Upon completion of Part III, emphasis should be
    shifted to the review and revision of Part I.

Goals and Procedures
    MCT Program officials had not developed goals and procedures to update
    militarily critical parameters of existing technologies or to identify developing
    technologies. TWG meetings were the mechanism used to update militarily
    critical parameters and identify developing technologies; however, no official
    guidance existed that stated TWG meetings should be held on a regular basis.
    Instead, TWG meetings appeared to be held on an ad hoc basis to address
    significant technology-emerging issues. In the last 3 years, TWGs existed that
    had not met and others that met several times. Management officials told us
    they did not have the resources to hold meetings of all the TWGs on a regular
    basis.




                                        18
           Review of Technical Working Group Meetings. The MCT Program lists
           20 TWGs that review technologies. A review of the TWG meetings in FY 2000
           disclosed that 6 of 20 (30 percent) of the TWGs did not meet. For FY 1999,
           7 of 20 (35 percent) TWGs did not meet.3 New technologies may have emerged
           or new uses for existing technologies may have been found, but TWGs are not
           meeting to discuss the effect of emerging technologies and new uses on the list
           of MCT. The review of TWG meetings revealed that 3 of the 20 TWGs have
           not met in the last 3 years despite covering areas of fast evolving technologies
           with related international issues. For example, the Ground Systems TWG did
           not hold any meetings in the last 3 years.

           Resources for the Militarily Critical Technologies Program. MCT Program
           officials suggested that the review of TWG meetings “illustrated the fact that the
           MCT Program continues to be financially constrained.” When a section of the
           list of MCT is under review, ideally initial and ending TWG meetings are held.
           At the ending meeting, a proposed revision to the section of the list of MCT is
           reviewed and recommended for approval. However, the MCT Program cannot
           force industry to provide people to attend actual meetings and does not have the
           resources to cover the cost of travel. Also, travel funding is an issue for the
           Military Departments and industry representatives. Therefore, members of the
           TWGs rely on communicating through e-mail, fax, Internet, phone, and
           teleconferencing. A chairperson of two of the TWGs stated that meetings are
           held “once in a while.” Although never actually seeing the person, the chairman
           tries to get input and comments from TWG members.

           The MCT Program manager stated that scarce resources have resulted in a
           reduction of TWG meetings. DTRA funds a task order for the Institute of
           Defense Analyses, a Federally Funded Research and Development Center, to
           support the MCT Program. The Institute of Defense Analyses employs the
           chairperson and infrastructure support system for the TWGs. The FY 2000
           Task Order requests the MCT Program to develop and publish the list of MCT
           Part III; begin revisions of the list of MCT Part I and II; and, as necessary,
           develop and publish addendums to the lists of MCT Part I and Part II.
           Generally, over the last 10 years, the MCT Program funding for management of
           the MCT Program has consistently been about $2.2 million per year. For
           FY 2001, the MCT Program was authorized only half of the funding expected,
           and the plans for receiving the remainder of the money are unclear.

Effect of the List of Militarily Critical Technologies on Export
  Control Lists
           The list of MCT supports implementation of U.S. export control policy. The
           list provides rationale for additions and deletions on various export control lists.
           The list of MCT is not an export control list but is a reference guide to aid in
           making export control and technology security decisions. On an export control



3
    This includes Electronics TWG meetings, which were not included in the list provided.

                                                     19
    list may be items that are not on the list of MCT and technologies on the list of
    MCT may not be on an export control list. The documents that comprise the list
    of MCT are updated as dictated by the national security environment.

    The list of MCT is not sufficiently up to date to guide the determinations of
    export controls because militarily critical parameters are not periodically
    updated. Additionally, developing technologies that are militarily critical may
    not have been added to export control lists because meetings with academia and
    industry to identify new MCT are minimal. The United States will not have
    sufficient guidance on the military criticality of technologies such as ground
    systems when a gap of 3 years exists in reviewing the militarily critical
    parameters. Insufficient guidance can result in export controls that are not
    needed or no export controls when they are needed. Additionally, export
    control lists that reflect MCT, such as the CCL and USML, may not reflect
    current data.
    The Defense Science Board report, “Globalization and Security,”
    December 1999, stated that research and development is becoming more
    commercial. With the growing trend of commercialization, relationships with
    industry becomes more important to identify MCT in time to develop effective
    export controls. Additionally, universities may not be able to recognize and
    identify military applications when developing new technologies.

Conclusion
    If the DoD plan for recurring reviews of the USML is implemented, the
    administration of export controls by the DoD and the United States will be
    facilitated. Additionally, the recurring reviews should result in a clearer export
    control process that is easier for exporters to understand.

    The list of MCT was designed to be a technical reference for licensing and
    export control. In the past, DoD has not used the list of MCT as intended.
    Additionally, the list of MCT is one important tool available for DoD to
    communicate with domestic academia and industry to identify emerging MCT in
    early stages of development. DTRA needs to establish goals and procedures to
    update militarily critical parameters of existing technologies and to identify
    emerging technologies.




                                        20
Recommendations and Management Comments
    The Deputy Under Secretary of Defense (Technology Security Policy) who is
    also the Director, Technology Security Directorate, Defense Threat Reduction
    Agency, answered recommendations made to the Director, Defense Threat
    Reduction Agency.

    B.1. We recommend that the Director, Defense Threat Reduction Agency,
    ensure that adequate funding and resources are available to support regular
    reviews of the list of Militarily Critical Technologies.

    Management Comments. The Deputy Under Secretary of Defense
    (Technology Security Policy) concurred, stating that adequate funding and
    resources should be available to support regular reviews of the list of MCT.
    However, the MCT Program is not the only resource used by DTRA and DoD
    in examining and modifying export control lists, and past resources have been
    adequate to meet requirements.

    B.2. We recommend that the Deputy Under Secretary of Defense
    (Technology Security Policy):

          a. Establish goals and procedures for the Militarily Critical
    Technologies Program to include scheduled meetings of all Technology
    Working Groups on a periodic basis.

           b. Ensure that the Militarily Critical Technolgies Program
    adequately supports the Technical Working Groups in their review of the
    Militarily Critical Technologies List at regular intervals.

    Management Comments. The Deputy Under Secretary of Defense
    (Technology Security Policy) stated that TWGs can be a valuable technical
    resource to augment DoD capabilities. DTRA intends to continue to schedule
    meetings of TWGs to augment resources as necessary with appropriate
    regularity to meet DoD export control requirements.




                                      21
           C. Commodity Jurisdiction Requests
              and Commodity Classification
              Requests
           The commodity jurisdiction and commodity classification procedures are
           key processes used by the U.S. Government to establish licensing
           controls. DoD reviews commodity jurisdiction requests; however, DoD
           has limited opportunity to review commodity classification requests. In
           FY 2000, DTRA averaged 76 days to respond to commodity jurisdiction
           request referrals from State. National Security Council guidance allows
           referral departments 35 days to respond to State on the referred
           commodity jurisdiction requests. DTRA did not comply with the
           mandatory time frames because of competing priorities among a limited
           work force. As a result, DoD contributed to delays in rendering export
           control decisions to exporters, causing uncertainty in the business
           community regarding export controls. DoD has limited opportunity to
           review commodity classification requests because Commerce refers few
           commodity classification requests to DoD for review. As a result,
           Commerce did not gain the value of DoD military expertise in properly
           classifying and controlling exports of dual-use items.

Commodity Jurisdiction Determinations and Commodity
  Classification Request Guidance
    Commodity Jurisdiction Determinations. The commodity jurisdiction process
    determines whether an item or service is covered by the CCL or the USML.
    The process may also be used for consideration of a redesignation of an article
    or service that is covered by the USML. Upon written request, State Office of
    Defense Trade Controls will provide a determination of whether a particular
    article or service is covered by the USML. If determined that an article or
    service is covered by the USML, State requires registration for exporters,
    furnishers, and manufacturers of defense articles and services. If covered by
    the CCL, the Commerce Export Administration Regulations are used to decide
    if export licenses are required. To determine an export classification under the
    CCL, the exporter can submit a commodity classification request.

    Commodity Classification Requests. The commodity classification process,
    managed by the Commerce Bureau of Export Administration is used to identify
    the Export Control Classification Number of a dual-use item. The Export
    Administration Regulations state that an exporter is responsible for classifying
    items for export control or may request that Commerce provide them with the
    correct Export Control Classification Number. Once Commerce has determined
    which, if any, Export Control Classification Number an item falls under, the
    exporter will know if an export license is required for a particular item. Each
    Export Control Classification Number has guidance as to whether an export
    license is required for a given destination.


                                       22
    National Security Council Guidance. National Security Council
    memorandum, “Procedures On Commodity Jurisdiction and Commodity
    Classification,” April 15, 1996, directs State to continue to refer to DoD and
    Commerce any commodity jurisdiction requests. The memorandum provides
    State an overall cumulative time frame of 95 calendar days to resolve
    commodity jurisdiction requests. Within the 95-day time frame, referral
    agencies, such as DoD, were provided 35 days to respond to referred
    commodity jurisdiction requests but may request in writing an additional 10 days
    when DoD considers the circumstances extraordinary. For commodity
    classification requests, DoD has 2 days to respond to Commerce. Failure to
    respond will be considered consent to the Commerce classification.

Review of Commodity Jurisdiction Requests by DTRA
    In FY 2000, the DTRA Technology Security Directorate averaged 76 days to
    respond to 215 commodity jurisdiction requests referred by State. State referred
    215 commodity jurisdiction requests to both Commerce and DoD. In contrast,
    Commerce referred only 13 commodity classification requests to DoD and State
    during the same period.

    DoD Commodity Jurisdiction Process. State refers commodity jurisdiction
    requests to DoD when there is a question of whether a commodity has a
    predominant civil application; has a civil application performance equivalent, as
    defined by form, fit, and function; or has a significant military or intelligence
    application such that it is necessary to control export as a defense article or
    service. DoD uses its engineering expertise and experience with munitions
    items to assist State in making determinations. The DTRA Technology Security
    Directorate reviews commodity jurisdiction cases that are referred by State to
    DoD.

    A DTRA licensing officer makes a preliminary review of the commodity
    jurisdiction request and determines whether DTRA engineering or Military
    Department expertise will be required. Often DTRA engineers work with the
    Military Departments to develop a DoD recommendation. Commodity
    jurisdiction requests are handled similar to a munitions license request except
    that there is a single DTRA licensing officer assigned to processing commodity
    jurisdiction requests.

    DoD Processing of Commodity Jurisdiction Requests. In FY 2000, DTRA
    processed 215 commodity jurisdiction requests. According to DTRA records,
    the processing time for the 215 commodity jurisdiction requests averaged
    76 days. Of the 215 commodity jurisdiction requests, only 18 were processed
    within the permissible time frame. For the 215 requests, the processing time
    ranged from 13 days to 356 days. The processing time was measured from the
    time the commodity jurisdiction request was received until the time a response
    was returned to State. If additional information was requested from the
    requestor or an escalation above State level occurred for a final determination,
    that time did not count in the 76-day processing time.



                                       23
Competing Priorities
     DTRA could not comply with the mandatory time frames for processing
     commodity jurisdiction requests because of competing priorities and a limited
     work force. The DTRA licensing officer processing commodity jurisdiction
     requests also processes license requests when necessary. Export license
     applications are normally given a higher priority than commodity jurisdiction
     requests, as delays in processing export license applications can adversely
     impact business opportunities for exporters. Commodity jurisdiction
     determinations establish the applicable licensing procedures for a product but
     actual exports of a product are accomplished by way of separate actions.
     Therefore, while commodity jurisdiction requests are being processed, DTRA
     routinely advises exporters to submit export license requests if the exporters
     have urgent near-term business opportunities. In FY 2000, DTRA processed
     22,390 license applications. DTRA is in the process of hiring 12 new licensing
     officers and 18 engineers to alleviate the existing workload among licensing
     officers. The DTRA licensing officer who handled commodity jurisdiction
     requests was confident that the mandatory 35-day time frame for commodity
     jurisdiction requests could be met if one individual were dedicated to the effort.

Effect of Delayed Commodity Jurisdiction Requests
     DoD contributed to delays in rendering export control decisions to exporters,
     causing uncertainty in the business community regarding export controls. The
     41 days average excess time that it takes DoD to process commodity jurisdiction
     requests directly affects the amount of time it takes to render a decision as to
     where exporters should submit license applications. That decision determines
     whether the CCL or the USML covers an article or service that determines
     when export licenses are required. However, when no determination on
     commodity jurisdiction has been made, it is unclear to the business community
     whether State will determine if the article or service is a munitions item. The
     lack of a U.S. Government decision results in regulations appearing to be less
     clear and the process less transparent. Timely determinations provide certainty
     to the business community and increase the likelihood that the business
     community will correctly comply with export control regulations. As DoD
     becomes more dependent on commercial enterprises, the practice of responding
     to business requests in a timely manner is good business sense to ensure DoD
     policies provide the U.S. business community with opportunities to successfully
     compete in the global market.




                                         24
Review of Commodity Classification Requests by DTRA
    DoD Processing of Commodity Classification Requests. Commerce refers
    commodity classification requests to DoD when Commerce determines that the
    item in question was initially designed or developed for military application.
    Based on engineering, military, and policy expertise with dual-use and
    munitions items, DoD advises Commerce as to whether:

           •   the proposed Export Control Classification Number is appropriate;

           •   the item should actually be controlled on the USML; or

           •   a formal commodity jurisdiction review should be initiated.

    A DTRA licensing officer makes a preliminary review of the commodity
    classification requests and determines whether DTRA engineering expertise is
    required. DTRA makes a recommendation on the referral and returns the
    commodity classification request back to Commerce within 2 working days as
    specified by National Security Council guidance.

DoD Position on the Review of Commodity Classification
  Requests
    A 1996 memorandum from the National Security Council set forth guidance for
    processing commodity classification requests. The National Security Council
    guidance stated that Commerce “will share with State and DoD all commodity
    classification requests for items/technologies specifically designed, developed,
    configured, adapted and modified for a military application, or derived from
    items/technologies specifically designed, developed, configured, adapted or
    modified for a military application.” Furthermore, the guidance instructed
    Commerce to refer these munitions-related commodity classification requests to
    DoD and State, allowing a turnaround time of 2 working days. In the
    Interagency Report No. 99-186, “Review of the DoD Export Licensing
    Processes for Dual-Use Commodities and Munitions,” June 1999, we stated that
    from April 1996 through March 1999, Commerce referred only 12 commodity
    classification requests to DoD. We recommended that DTRA work with
    Commerce to develop additional guidance and procedures on how to implement
    the 1996 National Security Council guidance.




                                       25
           In FY 2000, Commerce received 3,4114 commodity classification requests, 13
           of which were sent from State to DoD for review. Since the 1999 interagency
           report, discussions between DTRA and Commerce have taken place on
           commodity classification referrals but no agreements were reached. Further
           complicating the issue was a May 13, 1996, letter sent by the Director of the
           Defense Technology Security Administration (later consolidated into DTRA) to
           the Deputy Assistant Secretary of Export Administration requesting that
           Commerce provide, on a weekly basis, a copy of completed commodity
           classification requests and decisions to DoD. Commerce officials interpreted
           the letter to mean that DTRA was interested in seeing only completed
           commodity classifications and not proposed commodity classification requests.
           During our audit, Commerce officials stated that they would not send
           commodity classification requests to DoD for review unless the letter was
           rescinded.

           On December 6, 2000, the Assistant Inspector General for Auditing, DoD, sent
           a memorandum to the Deputy Under Secretary of Defense (Technology Security
           Policy) requesting clarification of the DoD position on reviewing commodity
           classification requests. The Deputy Under Secretary of Defense replied in
           writing to the Assistant Inspector General for Auditing the same day. See
           Appendix G for copies of those memoranda.

           In his reply, the Deputy Under Secretary stated that DoD has long maintained
           that all commodity classification decisions must be subject to prior interagency
           review. Additionally, he emphasized that DoD supported legislative language in
           a proposed Export Administration Act that would have provided an interagency
           dispute resolution process for commodity classification decisions. The Deputy
           Under Secretary stated:
                        There are important national security interests involved with
                        commodity classifications. For example, one possible outcome is a
                        classification that no [export] license is required. If this determination
                        is not proper, then certain items of national security concern could be
                        exported to problematic destinations without prior government
                        review. As such, we believe that significant military expertise
                        resident in DoD can provide real value in ensuring that proper
                        classifications are provided to exporters.



Conclusion
           Commodity jurisdiction requests referred by State to DoD are not being
           processed in compliance within National Security Council directed time frames.
           The prompt processing of commodity jurisdiction requests would result in better
           relations between DoD and the U.S. business community and more clear export
           controls.
4
    This number differs from our Memorandum for Deputy Secretary of Defense (Technology Security
    Policy), December 6, 2000, because subsequently the Bureau of Export Administration provided
    updated information for commodity classification requests. The Bureau of Export Administration
    included commodity jurisdiction and license determinations in the original number they provided.

                                                      26
    In the 1999 Interagency Report, DoD expressed concerns that Commerce
    referred too few commodity classification requests to DoD for review. Since
    the report, no significant increase in the number of referrals were reported. The
    report also stated that Commerce made decisions on cases with national security
    implications without the benefit of DoD input. DoD stated that with improper
    classification determinations, certain items of national security concern could be
    exported to problematic destinations without prior Government review. DoD
    indicated that the significant military expertise in DoD could provide real value
    in ensuring that proper classifications are provided to exporters. We continue to
    strongly agree with the DoD position that commodity classification decisions
    must be subject to interagency reviews.

Recommendations and Management Comments
    The Deputy Under Secretary of Defense (Technology Security Policy) who is
    also the Director, Technology Security Directorate, Defense Threat Reduction
    Agency, answered recommendations made to the Director, Defense Threat
    Reduction Agency.

    C.1. We recommend that the Director, Defense Threat Reduction Agency,
    provide adequate resources to decrease processing times for review of
    commodity jurisdiction requests.

    Management Comments. The Deputy Under Secretary of Defense
    (Technology Security Policy) stated that DTRA is in the process of hiring
    12 additional staff and some of those resources will be applied to the CJ review
    process.

    C.2. We recommend that the Deputy Under Secretary of Defense
    (Technology Security Policy) continue to work with the Department of
    Commerce to establish a process whereby all commodity classification
    requests are reviewed by the Defense Threat Reduction Agency in a
    disciplined and transparent procedure with strict time frames.
    Management Comments. The Deputy Under Secretary of Defense
    (Technology Security Policy) concurred, stating that DoD is continuing to
    discuss the important matter of handling commodity classification requests with
    Commerce and other agencies, particularly in context of the Senate
    consideration of a bill to reauthorize the Export Administration Act.




                                        27
Appendix A. Audit Process

Scope
    This is one in a series of reports being issued by the Inspector General, DoD, in
    accordance with the National Defense Authorization Act for Fiscal Year 2000,
    section 1402, which requires an annual report on the transfer of militarily
    sensitive technology to countries and entities of concern.

    We evaluated the role of DoD in reviewing and revising the CCL and the
    USML. Specifically, we examined the DoD process for ensuring that
    U.S. national security objectives are being considered when revisions to the
    CCL and the USML are made. Additionally, we evaluated whether DoD
    decisions regarding the CCL, the list of MCT, and the USML are reached in an
    efficient, optimal manner using all available information and resources.

    To accomplish the audit, we reviewed the applicable parts of the Export
    Administration Act and Export Administration Regulation; the CCL, list of
    MCT, and USML; the export control lists of international organizations; the
    IDA task order and TWG documentation; the documentation concerning the
    timeliness of commodity jurisdiction and commodity classification requests; and
    the white paper concerning the defense trade security initiatives and plan for the
    annual review of the USML. The documents were dated from September 1979
    through November 2000.

    We conducted interviews with personnel at DTRA; Defense Security
    Cooperation Agency; Security Assistance Command, Army; the Navy
    International Programs Office; International Affairs Division, Secretary of the
    Air Force; U.S. Army Communications-Electronic Command, Research,
    Development and Engineering Center, Electronics Sensors Directorate; Defense
    Intelligence Agency; National Security Council, Bureau of Export
    Administration, Department of Commerce; Office of Arms Control and
    Nonproliferation, Department of Energy; Office of Defense Trade Controls,
    Department of State; and the Institute for Defense Analyses.

    Limitations of Scope. We did not review Part II of the list of MCT, “Weapons
    of Mass Destruction Technologies,” because of its sensitive nature.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, and subordinate performance goal.




                                        28
    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-02) FY 2001 Subordinate Performance
    Goal 2.2: Transform U.S. military forces for the future.

Methodology
    Audit Approach. We performed work in the following areas:

           •   with representatives from the Office of the Inspector General,
               Department of Commerce, compared the 376 items on the
               4 multilateral export control lists and 2 items on the international
               treaty export control list with the 472 items on the CCL to determine
               how many items on the CCL are controlled by multilateral lists or
               are unilaterally controlled by the United States;

           •   reviewed the Export Administration Act to determine whether the list
               of MCT is required to be used in developing the CCL and to
               determine whether DTRA used the list of MCT in accordance with
               the Export Administration Act;

           •   researched the DoD role in processing 215 commodity jurisdiction
               requests and 13 commodity classification requests;

           •   researched and analyzed the DoD plan to review the USML on a
               quadrennial basis; and

           •   researched the structure and background of the CCL to determine
               how specific items are placed under listed classifications.

    Audit Types, Dates, and Standard. We performed this program audit from
    August 2000 through January 2001 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly we included tests of management
    controls considered necessary.

    Use of Computer-Processed Data. To achieve the audit objectives, we relied
    on computer-processed data contained in the DoD Foreign Disclosure and
    Technical Information System and provided by Commerce, Bureau of Export
    Administration, and State, Office of Defense Trade Controls. Although we did
    not perform a formal reliability assessment of the computer-processed data, we
    did not find errors that would preclude the use of the data to meet the objectives
    of the audit or that would change the conclusions in the report.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, the Departments of Commerce, Energy and State,
    and within industry. Further details are available upon request.


                                        29
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of those controls.

    Scope of Review of the Management Control Program. DTRA officials
    identified export control and technology security policies as an assessable unit.
    However, export control and technology security policies were assigned an
    overall low risk assessment. DTRA officials stated that the reason for the low
    risk assessment is that DTRA does not have ultimate authority over the export
    licensing function. We did not review the adequacy of management controls
    over the CCL and USML because those lists are controlled by Commerce and
    State, respectively. We did review the DTRA and DTRA Technology Security
    Directorate management controls over the list of MCT.

    Adequacy of Management Controls. DTRA management controls were
    adequate in that we identified no material management control weaknesses.




                                        30
Appendix B. Prior Coverage
    During the last 5 years the General Accounting Office and the Inspector
    General, DoD, have conducted multiple reviews related to the adequacy of
    management controls over transfers of sensitive and critical DoD technology
    with potential military application to foreign nationals. Unrestricted General
    Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
    accessed over the Internet at http://www.dodig.osd.mil/audit/reports. The
    following previous reports are of particular relevance to the subject matter in
    this report.


General Accounting Office
    General Accounting Office Report No. NSIAD-00-190R (OSD Case No. 2045),
    “Defense Trade: Status of the Department of Defense’s Initiatives on Defense
    Cooperation,” July 19, 2000

    General Accounting Office Report No. NSIAD-95-82 (OSD Case No. 9798),
    “Export Controls: Some Controls Over Missile-Related Technology Exports to
    China Are Weak,” April 1995


Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-007, “Foreign National Security
    Controls at DoD Research Laboratories,” October 27, 2000

    Inspector General, DoD, Report No. D-2000-130, “Foreign National Access to
    Automated Information Systems,” May 26, 2000

    Inspector General, DoD, Report No. D-2000-110, “Export Licensing at DoD
    Research Facilities,” March 24, 2000

    Inspector General, DoD, Report No. 99-186, “Review of the DoD Export
    Licensing Processes for Dual-Use Commodities and Munitions, June 18, 1999




                                        31
Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy and
    State, Report No. D-2000-109, “Interagency Review of the Export Licensing
    Process for Foreign National Visitors,” March 24, 2000

    Inspectors General of the Departments of Commerce, Defense, Energy, State,
    and the Treasury and the Central Intelligence Agency, Report No. 99-187,
    “Interagency Review of the Export Licensing Processes for Dual-Use
    Commodities and Munitions,” June 18, 1999




                                     32
Appendix C. Management Actions to Review the
            U.S. Munitions List
   In response to DTSI 17, as described in finding B, DTRA officials created a
   plan for recurring reviews of the 19 actively used categories of the USML every
   4 years and to present any resultant recommended revisions to State. State
   would consider the DoD recommendations and determine whether the continued
   control of items was justified. The criteria for adding, deleting, or continuing to
   control items under the USML would be foreign policy considerations and
   national security interests. Items that DoD and State agree to remove from the
   USML must be approved by the State Under Secretary for Arms Control and
   International Security, and Congress must be notified 30 days before a USML
   change. Industry would participate through the Defense Trade Advisory Group
   and the Federal Register rule-making process. Commerce would be involved
   when DoD and State agree that export controls of certain items should be moved
   from the USML to the CCL.

   The latest version of that plan is dated November 27, 2000. The plan outlines
   the process and schedule for conducting the initial review of the first five USML
   categories by May 2001. Those five categories are:

          •   Category I - Firearms;

          •   Category V - Explosives, Propellants, Incendiary Agents and their
              Constituents;

          •   Category VIII - Aircraft and Associated Equipment,

          •   Category XIV - Toxicological Agents and Equipment and
              Radiological Equipment; and

          •   Category XVI - Nuclear Weapons, Design and Test Equipment.

   The plan listed four outcomes or goals of the reviews.

          1. Identification of USML items that are more properly controlled by
             the CCL.

          2. Identification of items that should no longer be controlled on either
             the USML or CCL. Continued controls under the Department of
             Treasury Office of Foreign Asset Control regulations to terrorist and
             embargoed destinations may be required for such items, however.

          3. Identification of additions to the USML, primarily because of new
             technological developments.

          4. Clarification of USML language to ensure that users of the list can
             easily identify the items requiring export licenses.


                                       33
According to DTRA officials, the plan was discussed with senior Commerce,
DoD, National Security Council, and State officials on November 27, 2000.
Review of the first five categories of the USML has begun. Either four or five
of the remaining categories will be selected for review each year to result in a
review of the total USML every 4 years.

DTRA officials also stated that the overall objectives of the effort would be to
make the USML easier for users to identify specific items for which export
licenses would be required and to ensure that the USML reflected the critical
technologies identified in the list of MCT. Reviews are to be performed by
DoD working groups being established for each USML category. Technical
issues will be referred to TWGs. An oversight group will be staffed by DTRA
licensing and technology officials. A coordinating group will be staffed by
principals from the Military Departments, as well as the Offices of the Under
Secretary of Defense for Acquisition, Technology, and Logistics and the Under
Secretary of Defense for Policy.

Working Group Actions. The working groups have completed a draft revision
of USML Category V, which has been renamed “Energetic Materials and
Related Substances.” Information pertaining to items in Category V has been
reorganized under homogeneous subcategory headings and the names of new
technology substances have been added. References to related export control
regulations have also been added.




                                   34
Appendix D. Multilateral Export Control
            Organizations
   The United States is a member of several international organizations that attempt
   to control the export of munitions and dual-use items. The multilateral
   organizations are international agreements that contain export control lists.
   Each agreement has specific times when the international representatives meet
   each year to determine changes that would be beneficial to the lists. Through
   proposals, suggestions for list changes are received, discussed, and implemented
   according to agreement. The international organizations are as follows.

   Australia Group. The Australia Group is an informal forum of states whose
   objective is to limit the transfer of components of chemical weapons, equipment
   used in the production of chemical and biological weapons, and biological
   warfare agents. The Australia Group actions are viewed as complementary
   measures in support of the 1925 Geneva Protocol, the 1972 Biological and
   Toxins Weapons Convention, and the 1993 Chemical Weapons Convention.
   The Australia Group has no charter or constitution; it operates by consensus.
   The Australia Group has established common export controls for chemical and
   biological weapons nonproliferation purposes. The Australia Group meetings
   focus on sharing information about national export controls; considering
   proposals for “harmonization;” adopting common controls by all members on
   chemical precursors, equipment, biological weapons related materials; and
   considering other measures to address chemical and biological weapon
   proliferation and use. The Australia Group has 30 members. Requests by
   nations to join the Australia Group are considered on a case-by-case basis. As
   of January 1999, the following were signatories to the Australia Group.

   Argentina                    Greece                       Poland
   Australia                    Hungary                      Portugal
   Austria                      Iceland                      Romania
   Belgium                      Ireland                      Slovak Republic
   Canada                       Italy                        South Korea
   Czech Republic               Japan                        Spain
   Denmark                      Luxembourg                   Sweden
   Finland                      Netherlands                  Switzerland
   France                       New Zealand                  United Kingdom
   Germany                      Norway                       United States




                                      35
Chemical Weapons Convention. The Chemical Weapons Convention is a
global treaty that bans an entire class of weapons of mass destruction—chemical
weapons. The Chemical Weapons Convention not only requires parties to
destroy their chemical weapons arsenals but prohibits them from transferring
chemical weapons to other countries or assisting anyone in prohibited activities.
As of November 28, 2000, there were 141 signatories to the Chemical
Weapons Convention treaty.

Missile Technology Control Regime. The Missile Technology Control Regime
is an informal nontreaty-based export control regime with the aim of limiting the
spread of missiles and missile technology. The regime also covers delivery
systems for chemical and biological weapons. The Material and Technology
Annex of the Missile Technology Control Regime is divided into two main
categories: Category I includes finished missile systems and unmanned air
vehicle systems that exceed the Missile Technology Control Regime range and
payload limitations; and Category II includes materials, components, and
technologies that could aid in the development of proscribed systems. The only
prohibition contained in the regime’s guidelines is on the transfer of complete
facilities for regime-controlled missile production. The Missile Technology
Control Regime is neither an international treaty nor a legally binding
agreement. Missile Technology Control Regime members voluntarily pledge to
adopt the Missile Technology Control Regime export guidelines and to restrict
the export of items contained in the Missile Technology Control Regime annex.
No provisions exist in the Missile Technology Control Regime for enforcement
of its terms or sanctions for violations. Membership decisions are made only by
consensus. As of August 2000, there were 32 members of the Missile
Technology Control Regime.

Argentina                    Greece                        Portugal
Australia                    Hungary                       Russia
Austria                      Iceland                       South Africa
Belgium                      Ireland                       Spain
Brazil                       Italy                         Sweden
Canada                       Japan                         Switzerland
Czech Republic               Luxembourg                    Turkey
Denmark                      Netherlands                   Ukraine
Finland                      New Zealand                   United Kingdom
France                       Norway                        United States
Germany                      Poland




                                    36
Nuclear Suppliers Group. The Nuclear Suppliers Group, which was first
called the London Club in May of 1974, is a group of nuclear supplier countries
that seek to contribute to the nonproliferation of nuclear weapons. The Nuclear
Suppliers Group is not an international legally binding agreement but a
collective policy agreement of the member states. The Nuclear Suppliers Group
consists of two controls—Dual-Use controls and Trigger List controls. A
country can become an “adherent” to the Nuclear Suppliers Group Guidelines
by sending a letter to the Director General of the International Atomic Energy
Agency declaring the intention of the government to conduct its nuclear export
control activities in accordance with either part or both of the Nuclear Suppliers
Group Guidelines. The European Union has been given permanent observer
representation in all of the activities of the Nuclear Suppliers Group.
Nonmember countries that desire to observe must be accepted by consensus for
each plenary. As of November 30, 2000, the Nuclear Suppliers Group has
39 members.

Argentina                    Germany                       Romania
Australia                    Greece                        Russia
Austria                      Hungary                       Slovak Republic
Belarus                      Ireland                       Slovenia
Belgium                      Italy                         South Africa
Brazil                       Japan                         Spain
Bulgaria                     Latvia                        Sweden
Canada                       Luxembourg                    Switzerland
Cyprus                       Netherlands                   Turkey
Czech Republic               New Zealand                   Ukraine
Denmark                      Norway                        United Kingdom
Finland                      Poland                        United States
France                       Portugal




                                    37
Wassenaar Arrangement. The Wassenaar Arrangement on Export Controls
for Conventional Arms and Dual-Use Goods and Technologies was established
as a successor to the Coordinating Committee for Multilateral Export Controls
in order to address post-cold war security concerns. Participating countries,
through national policies, ensure that transfers of items do not contribute to the
development or enhancement of military capabilities that undermine goals, and
are not diverted to support such capabilities. The decision to transfer or deny
transfer of any item is the sole responsibility of each participating country. The
measures undertaken with respect to the Wassenaar Arrangement are in
accordance with national legislation and policies and implemented on the basis
of national discretion. As of July 31, 2000, the Wassenaar Arrangement has
34 participating members.

Argentina                     Hungary                       Russia
Australia                     Ireland                       Slovak Republic
Austria                       Italy                         Spain
Belgium                       Japan                         Sweden
Bulgaria                      Luxembourg                    Switzerland
Canada                        Netherlands                   Turkey
Czech Republic                New Zealand                   Ukraine
Denmark                       Norway                        United Kingdom
Finland                       Poland                        United States
France                        Portugal
Germany                       Republic of Korea
Greece                        Romania




                                    38
Appendix E. Unilaterally Controlled Items on
            the Commerce Control List
The following is a list of the 137 unilaterally controlled items on the CCL.

Category 0 - Nuclear Materials, Facilities, and Equipment
ECCN Description
A.      Systems, Equipment and Components
0A018 Items on the International Munitions List
0A978 Saps
0A979 Police helmets and shields; and parts
0A980 Horses by sea
0A982 Saps; thumbcuffs, leg irons, shackles, and handcuffs, straight jackets, plastic
        handcuffs, police helmets and shields; and parts and accessories
0A983 Specially designed implements of torture and thumbscrews; and parts and
        accessories
0A984 Shotguns, barrel length 18 inches or over; buckshot shotgun shells; except
        equipment used exclusively to treat or tranquilize animals, and except arms
        designed solely for signal, flare, or saluting use; and parts
0A985 Discharge type arms (for example, stun guns, shock batons, electric cattle prods,
        immobilization guns and projectiles, etc.) except equipment used exclusively to
        treat or tranquilize animals, and except arms designed solely for signal, flare, or
        saluting use; and parts
0A986 Shotgun shells, except buckshot shotgun shells, and parts
0A987 Optical sighting devices for firearms and parts
0A988 Conventional military steel helmets and machetes
0A989 Water cannon and specially designed components for water cannon
0A999 Specific processing equipment
B.      Test, Inspection and Production Equipment
0B008 Equipment for nuclear reactors
0B986 Equipment specially designed for manufacturing shotgun shells; and ammunition
        hand-loading equipment for both cartridges and shotgun shells
0B999 Specific processing equipment
C.      Materials
D.      Software
0D001 Software specially designed or modified for the development, production or use
        of goods
0D999 Specific software




                                            39
E.       Technology
0E001    Technology for the development, production, or use of items controlled by this
         category
0E018    Technology for the development, production, or use of items controlled by the
         International Munitions List
0E982    Technology exclusively for the development or production of equipment
0E984    Technology for the development or production of shotguns and buckshot shotgun
         shells

Category 1 - Materials, Chemicals, Microorganisms, and Toxins
ECCN Description
A.      Systems, Equipment and Components
1A290 Depleted uranium in shipments of more than 1,000 kilograms in the form of
        shielding contained in X-ray units, radiographic exposure or teletherapy devices,
        radioactive thermoelectric generators, or packaging for the transportation of
        radioactive materials
1A984 Chemical agents, including tear gas formulation containing 1 percent or less of
        orthochlorobenzalmalononitrile or 1 percent or less of chloroacetophenone,
        except in individual containers with a net weight of 20 grams or less; smoke
        bombs; nonirritant smoke flares, canisters, grenades and charges; other
        pyrotechnic articles having dual military and commercial use; and fingerprinting
        powders, dyes and inks
1A985 Fingerprinting powders, dyes, and inks
1A999 Specific processing equipment
B.      Test, Inspection and Production Equipment
1B999 Specific processing equipment
C.      Materials
1C018 Commercial charges and devices containing energetic materials on the
        International Munitions List
1C980    Inorganic chemicals that were produced or derived from the Naval Petroleum
         Reserves or became available for export as a result of an exchange of any Naval
         Petroleum Reserves produced or derived commodities
1C981    Crude petroleum including reconstituted crude petroleum, tar sands and crude
         shale oil
1C982    Other petroleum products that were produced or derived from the Naval
         Petroleum Reserves or became available for export as a result of an exchange of
         any Naval Petroleum Reserves produced or derived commodities




                                          40
1C983    Natural gas liquids and other natural gas derivatives that were produced or
         derived from the Naval Petroleum Reserves or became available for export as a
         result of an exchange of any Naval Petroleum Reserves produced or derived
         commodities
1C984    Manufactured gas and synthetic natural gas (except when commingled with
         natural gas and thus subject to export authorization from the Department of
         Energy) produced or derived from the Naval Petroleum Reserves or became
         available for export as a result of an exchange of any Naval Petroleum Reserves
         produced or derived commodities
1C988    Western red cedar (thuja plicata), logs and timber, and rough, dressed and
         worked lumber containing wane
1C990    Fibrous and filamentary materials, not otherwise controlled, for use in composite
         structures
1C991    Vaccines, immunotoxins, medical products, diagnostic and food testing kits
1C992    Commercial charges and devices containing energetic materials
1C995    Mixtures containing precursor and intermediate chemicals used in the production
         of chemical warfare agents that are not otherwise controlled
1C996    Hydraulic fluids containing synthetic hydrocarbon oils
1C999    Specific materials
D.       Software
1D993    Software specifically designed for the development, production, or use of
         equipment or materials
1D999    Specific software
E.       Technology
1E994    Technology for the development, production, or use of fibrous and filamentary
         materials

Category 2 - Materials Processing
ECCN Description
A.      Equipment, Assemblies and Components
2A290 Generators and other equipment specially designed, prepared or intended for use
        with nuclear plants
2A291 Equipment related to nuclear material handling and processing and to nuclear
        reactors
2A292 Piping, fittings and valves made of, or lined with, stainless steel, copper-nickel
        alloy or other steel containing 10 percent or more nickel and/or chromium
2A293 Pumps designed to move molten metals by electromagnetic forces
2A991 Bearings and bearing systems not otherwise controlled




                                          41
2A993   Explosive detection systems, consisting of an automated device, or combination
        of devices, with the ability to detect the presence of different types of explosives,
        in passenger checked baggage, without need for human skill, vigilance, or
        judgment
2A994   Portable electric generators and specially designed parts
2A999   Specific processing equipment
B.      Test, Inspection and Production Equipment
2B290   Numerically controlled machine tools not otherwise controlled
2B991   Numerical control units for machine tolls and numerically controlled machine
        tools
2B992   Nonnumerically controlled machine tools for generating optical quality surfaces,
        and specially designed components therefor
2B993   Gearmaking and/or finishing machinery not otherwise controlled capable of
        producing gears to a specified quality level
2B996   Dimensional inspection or measuring systems or equipment not otherwise
        controlled
2B997   Robots not otherwise controlled that are capable of employing feedback
        information in real-time processing from one or more sensors to generate or
        modify programs or to generate or modify numerical program data
2B998   Assemblies, units or inserts specially designed for machine tools or for equipment
2B999   Specific processing equipment
C.      Materials [Reserved]
D.      Software
2D202   Software specially designed or modified for the development, production or use
        of equipment
2D290   Software specially designed or modified for the development, production or use
        of Materials Processing items
2D991   Software specially designed for the development, production, or use of Materials
        Processing equipment
2D992   Specific software
2D994   Software specially designed for the development or production of portable
        electric generators
E.      Technology
2E290   Technology according to the General Technology Note for the use of Materials
        Processing equipment
2E991   Technology for the use of Materials Processing equipment
2E994   Technology for the use of portable electric generators




                                          42
Category 3 – Electronics
ECCN Description
A.      Systems, Equipment and Components
3A292 Oscilloscopes and transient recorders and specially designed components therefor
3A980   Voice print identification and analysis equipment and parts
3A981   Polygraphs (except biomedical recorders designed for use in medical facilities for
        monitoring biological and neurophysical responses); fingerprint analyzers,
        cameras and equipment; automated fingerprint and identification retrieval
        systems; psychological stress analysis equipment; electronic monitoring restraint
        devices; and specially designed parts and accessories
3A991   Electronic devices and components not otherwise controlled
3A992   General purpose electronic equipment not otherwise controlled
3A999   Specific processing equipment
B.      Test, Inspection and Production Equipment
3B991   Equipment for the manufacture of electronic components and materials, and
        specially designed components and accessories therefor
3B992   Equipment used for the inspection or testing of electronic components and
        materials, and specially designed components and accessories therefor
C.      Materials
3C992   Positive resists designed for semiconductor lithography specially adjusted
        (optimized) for use at wavelengths between 370 and 350 nanumeter
D.      Software
3D102   Software specially designed for the development or production of equipment
3D980   Software specially designed for the development, production, or use of
        electronics
3D991   Software specially designed for the development, production, or use of electronic
        devices or components, general purpose electronic equipment, or manufacturing
        and test equipment
E.      Technology
3E292   Technology according to the General Technology Note for the development,
        production, or use of equipment
3E980   Technology specially designed for development, production, or use of electronics
3E991   Technology for the development, production, or use of electronic devices or
        components, general purpose electronic equipment, or manufacturing and test
        equipment




                                         43
Category 4 – Computers
ECCN Description
A.      Systems, Equipment and Components
4A980 Computers for fingerprint equipment
4A994 Computers, electronic assemblies, and related equipment and specially designed
        components therefor
B.      Test, Inspection and Production Equipment
4B994 Equipment for the development and production of magnetic and optical storage
        equipment
C.      Materials
4C994 Materials specially formulated for and required for the fabrication of head/disk
        assemblies for controlled magnetic and magneto-optical hard disk drives
D.      Software
4D980 Software specially designed for the development, production, or use of computer
        items
4D993 Program proof and validation software, software allowing the automatic
        generation of source codes, and operating system software that are specially
        designed for real time processing equipment
4D994 Software specially designed or modified for the development, production, or use
        of equipment and materials
E.      Technology
4E980 Technology for the development, production, or use of computer items


4E992   Technology for the development, production, or use of equipment, materials, or
        software
4E993   Other technology for the development or production of graphics accelerators or
        equipment designed for multidatastream processing and technology required for
        the development or production of magnetic hard disk drives

Category 5, Part I - Telecommunications and Information Security
ECCN Description
A.      Systems, Equipment and Components
5A980 Communications intercepting devices; and parts and accessories therefor
5A991 Telecommunication equipment
B.      Test, Inspection and Production Equipment
5B991 Telecommunications test equipment
C.      Materials
5C991 Preforms of glass or of any other material optimized for the manufacture of
        optical fibers



                                        44
D.       Software
5D991    Software specially designed or modified for the development, production, or use
         of equipment
E.       Technology
5E991    Technology for the development, production, or use of equipment, software, and
         other technologies

Category 5, Part II – Telecommunications and Information Security
ECCN Description
A.      Systems, Equipment and Components
5A992 Equipment and telecommunications
B.      Test, Inspection and Production Equipment
C.      Materials [Reserved]
D.      Software
5D992 Information Security software
E.      Technology
5E992 Information Security technology

Category 6 - Sensors and Lasers
ECCN Description
A.      Systems, Equipment and Components
6A991 Marine or terrestrial acoustic equipment, capable of detecting or locating
        underwater objects or features or positioning surface vessels or underwater
        vehicles; and specially designed components
6A992 Optical Sensors
6A994 Optics
6A995 Lasers
6A996 Magnetometers
6A997 Gravity meters (gravimeters) for ground use
6A998 Airborne radar equipment, and specially designed components therefor
6A999 Specific processing equipment
B.      Test, Inspection and Production Equipment
6B995 Specially designed or modified equipment, including tools, dies, fixtures or
        gauges, and other specially designed components and accessories therefor
C.      Materials
6C992 Optical sensing fibers which are modified structurally to have a beat length of
        less than 500 millimeters (high birefringence) or optical sensor materials having a
        zinc content of equal to or more than 6 percent by weight
6C994 Optical materials



                                          45
D.      Software
6D991   Software specially designed for the development, production, or use of equipment
6D992   Software specially designed for the development or production of equipment
6D993   Other software
E.      Technology
6E991   Technology for the development, production, or use of sensors and lasers
6E992   Technology for the development or production of equipment, materials, or
        software
6E993 Other technology
Category 7 - Navigation and Avionics
ECCN Description
A.      Systems, Equipment and Components
7A994 Other navigation direction finding equipment, airborne communication
        equipment, all aircraft inertial navigation systems, and other avionic equipment,
        including parts and components
B.      Test, Inspection and Production Equipment
7B994 Other equipment for the test, inspection, or production of navigation and avionics
        equipment
C.      Materials [Reserved]
D.      Software
7D994 Software, for the development, production, or use of navigation, airborne
        communication and other avionics
E.      Technology
7E994 Technology, for the development, production, or use of navigation, airborne
        communication, and other avionics equipment

Category 8 – Marine
ECCN Description
A.      Systems, Equipment and Components
8A018 Items on the International Munitions List
8A992    Underwater systems or equipment and specially designed parts therefor
B.       Test, Inspection and Production Equipment
C.       Materials
D.       Software
8D992    Software specially designed or modified for the development, production or use
         of equipment
E.       Technology
8E992    Technology for the development, production or use of marine equipment



                                         46
Category 9 - Propulsion Systems, Space Vehicles and Related Equipment
ECCN Description
A.      Systems, Equipment and Components
9A980 Nonmilitary mobile crime science laboratories; and parts and accessories
9A990 Diesel engines, and tractors and specially designed parts therefor
9A991 Aircraft, and gas turbine engines and parts and components
9A992 Complete canopies, harnesses, and platforms and electronic release mechanisms
        therefor, except such types as are in normal sporting use
B.      Test, Inspection and Production Equipment
9B990 Vibration test equipment and specially designed parts and components
9B991 Specially designed equipment, tooling or fixtures, for manufacturing or
        measuring gas turbine blades, vanes or tip shroud casting
C.      Materials [Reserved]
D.      Software
9D990 Software, for the development or production of equipment
9D991 Software, for the development or production of equipment
E.      Technology
9E990 Technology, for the development or production or use of equipment
9E991   Technology, for the development, production or use of equipment
9E993   Other technology




                                        47
 Appendix F. Countries Affected by Unilateral
             Controls

                          Abstract of the Commerce Country Chart

                Nuclear                                                   Nuclear
                 Non-         Crime       Anti-                            Non-         Crime       Anti-
 Country      proliferation   Control   Terrorism         Country       proliferation   Control   Terrorism


Afghanistan        X            X           -            Benin               X            X           -

Albania            X            X           -            Bhutan              X            X           -

Algeria            X            X           -            Bolivia             X            X           -

Andorra            X            X           -            Bosnia and          X            X           -
                                                         Herzegovina
Angola             X            X           -
                                                         Botswana            X            X           -
Antigua and
                   X            X           -            Brazil               -           X           -
Barbuda

Argentina           -           X           -            Brunei              X            X           -

Armenia            X            X           -            Bulgaria             -           X           -

Australia           -            -          -            Burkina Faso        X            X           -

                                                         Burma               X            X           -
Austria             -           X           -
                                                         Burundi             X            X           -
Azerbaijan         X            X           -
                                                         Cambodia            X            X           -
Bahamas,           X            X           -
The                                                      Cameroon            X            X           -
Bahrain            X            X           -            Canada               -            -          -

Bangladesh         X            X           -            Cape Verde          X            X           -

Barbados           X            X           -            Central
                                                         African             X            X           -
Belarus            X            X           -            Republic

Belgium             -            -          -            Chad                X            X           -

Belize             X            X           -            Chile               X            X           -

                                                    48
                  Nuclear                                                  Nuclear
                   Non-         Crime       Anti-                           Non-         Crime       Anti-
 Country        proliferation   Control   Terrorism          Country     proliferation   Control   Terrorism


China                X            X              -         Ethiopia           X            X           -

Colombia             X            X              -         Fiji               X            X           -

Comoros              X            X              -         Finland             -           X           -

Congo                X            X              -         France              -            -          -

Costa Rica           X            X              -         Gabon              X            X           -

                                                           Gambia, The        X            X           -
Cote d’Ivoire        X            X              -
                                                           Georgia            X            X           -
Croatia              X            X              -
                                                           Germany             -            -          -
                See part 746 of the Export
Cuba            Administration Regulation to               Ghana              X            X           -
                determine whether a license is
                required.                                  Greece              -            -          -
Cyprus               X            X              -
                                                           Grenada            X            X           -
Czech
                      -           X              -         Guatemala          X            X           -
Republic

Denmark               -            -             -         Guinea             X            X           -

Djibouti             X            X              -         Guinea-
                                                                              X            X           -
                                                           Bissau
Dominica             X            X              -
                                                           Guyana             X            X           -
Dominican
                     X            X              -         Haiti              X            X           -
Republic

Ecuador              X            X              -         Honduras           X            X           -

Egypt                X            X              -         Hong Kong          X            X           -

El Salvador          X            X              -         Hungary             -           X           -

Equatorial           X            X              -         Iceland            X             -          -
Guinea
                                                           India              X            X           -
Eritrea              X            X              -
                                                           Indonesia          X            X           -
Estonia              X            X              -


                                                      49
                 Nuclear                                                    Nuclear
                  Non-         Crime       Anti-                             Non-         Crime       Anti-
 Country       proliferation   Control   Terrorism         Country        proliferation   Control   Terrorism


                See part 746 of the Export                Lebanon              X            X           -
Iran            Administration Regulation to
                determine whether a license is            Lesotho              X            X           -
                required.
                                                          Liberia              X            X           -
                See part 746 of the Export
Iraq            Administration Regulation to              Libya            See part 746 of the Export
                determine whether a license is                             Administration Regulation to
                required.                                                  determine whether a license is
                                                                           required.
Ireland              -           X           -
                                                          Liechtenstein        X            X           -
Israel              X            X           -
                                                          Lithuania            X            X           -
Italy                -            -          -
                                                          Luxembourg            -            -          -
Jamaica             X            X           -
                                                          Macau                X            X           -
Japan                -            -          -
                                                          FYROM
                                                                               X            X           -
                                                          (Macedonia)
Jordan              X            X           -
                                                          Madagascar           X            X           -
Kazakhstan          X            X           -
                                                          Malawi               X            X           -
Kenya               X            X           -
                                                          Malaysia             X            X           -
Kiribati            X            X           -
                                                          Maldives             X            X           -
Korea, North        X            X          X
                                                          Mali                 X            X           -
Korea, South         -           X           -
                                                          Malta                X            X           -
Kosovo
(Serbian            X            X           -
                                                          Marshall
province of)                                                                   X            X           -
                                                          Islands
Kuwait              X            X           -
                                                          Mauritania           X            X           -
Kyrgyzstan          X            X           -
                                                          Mauritius            X            X           -

Laos                X            X           -            Mexico               X            X           -

Latvia              X            X           -            Micronesia           X            X           -



                                                     50
                Nuclear                                                    Nuclear
                 Non-         Crime       Anti-                             Non-         Crime       Anti-
 Country      proliferation   Control   Terrorism         Country        proliferation   Control   Terrorism


Moldova            X            X           -            Philippines          X            X           -

Monaco             X            X           -            Poland                -           X           -

Mongolia           X            X           -            Portugal              -            -          -

Montenegro         X            X           -            Qatar                X            X           -

Morocco            X            X           -            Romania               -           X           -

Mozambique         X            X           -            Russia                -           X           -

Namibia            X            X           -            Rwanda               X            X           -

Nauru              X            X           -            St. Kitts and
                                                                              X            X           -
                                                         Nevis
Nepal              X            X           -
                                                         St. Lucia            X            X           -

Netherlands         -            -          -            St. Vincent
                                                                              X            X           -
                                                         and
New Zealand         -            -          -            Grenadines

Nicaragua          X            X           -            San Marino           X            X           -

Niger              X            X           -            Sao Tome
                                                                              X            X           -
                                                         and Principe
Nigeria            X            X           -
                                                         Saudi Arabia         X            X           -
Norway              -            -          -
                                                         Senegal              X            X           -
Oman               X            X           -
                                                         Serbia (not      See part 746 of the Export
Pakistan           X            X           -            including        Administration Regulation to
                                                         Kosovo)          determine whether a license is
Palau              X            X           -                             required.

Panama             X            X           -            Seychelles           X            X           -

Papua New                                                Sierra Leone         X            X           -
                   X            X           -
Guinea

Paraguay           X            X           -            Singapore            X            X           -

Peru               X            X           -            Slovakia              -           X           -



                                                    51
                 Nuclear                                                   Nuclear
                  Non-         Crime       Anti-                            Non-         Crime       Anti-
 Country       proliferation   Control   Terrorism         Country       proliferation   Control   Terrorism


Slovenia            X            X           -            Turkmenistan        X            X           -

Solomon                                                   Tuvalu              X            X           -
                    X            X           -
Islands
                                                          Uganda              X            X           -
Somalia             X            X           -
                                                          Ukraine              -           X           -
South Africa         -           X           -
                                                          United Arab
Spain                -            -          -                                X            X           -
                                                          Emirates
Sri Lanka           X            X           -
                                                          United               -            -          -
Sudan               X            X          X             Kingdom

Suriname            X            X           -            Uruguay             X            X           -

Swaziland           X            X           -            Uzbekistan          X            X           -

Sweden               -           X           -            Vanuatu             X            X           -

Switzerland          -           X           -            Vatican City        X            X           -

Syria               X            X          X             Venezuela           X            X           -

Taiwan              X            X           -            Vietnam             X            X           -

Tajikistan          X            X           -            Western
                                                                              X            X           -
                                                          Sahara
Tanzania            X            X           -
                                                          Western
                                                                              X            X           -
Thailand            X            X           -            Samoa

Togo                X            X           -            Yemen               X            X           -

Tonga               X            X           -            Zaire               X            X           -

Trinidad and                                              Zambia              X            X           -
                    X            X           -
Tobago
                                                          Zimbabwe            X            X           -

Tunisia             X            X           -

Turkey              X             -          -




                                                     52
Appendix G. Letters Concerning Commodity
            Classification Requests




                     53
54
55
56
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Affairs)
  Deputy Under Secretary of Defense (Policy Support)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Threat Reduction Agency
Defense Intelligence Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of State




                                          57
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Economic Policy and Trade, Committee on
  International Relations
House Permanent Select Committee on Intelligence




                                       58
Deputy Under Secretary of Defense (Technology
Security Policy) Comments




                   59
60
61
62
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
Timothy E. Moore
Jane T. Thomas
Julie C. Kienitz
David L. Leising
Frank J. Kelly
Christine M. McIsaac
Jessica S. Miller
